1850 NORTH CENTRAL AVENUE, SUITE 1400
PHOENIX, AZ 85004-4568
TELEPHONE: 602-285-5000
FACSIMILE: 844-670-6009
http://www.dickinsonwright.com

BENNETT EVAN COOPER
BCooper@dickinsonwright.com
602-285-5044

October 9, 2020
Clerk of the Supreme Court
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543
Re:

Jack Daniel’s Properties, Inc. v. VIP Products LLC, No. 20-365:
Request for Extension of Time for Opposition to Petition for Certiorari

Dear Sir:
Respondent VIP Products LLC, by its undersigned counsel, requests a thirty-day extension
of time to November 18, 2020, to file its response to the Petition for a Writ of Certiorari filed by
petitioner Jack Daniel’s Properties, Inc. The petition was filed on September 15, 2020, and
docketed on September 18, 2020, and VIP Products’ response is currently due on October 19,
2020. VIP Products has not previously requested an extension.
VIP Products respectfully submits that good cause exists for its requested extension. As
the result of the coronavirus pandemic, its counsel’s access to their law offices remains restricted,
and counsel and staff are in most cases working remotely; one principal attorney for VIP Products
is working remotely from a residence in another state. Among other things, this has precluded
counsel from working together and impeded the preparation of VIP Products’ response. In
addition, counsel has conflicting briefing schedules in several other matters, including appeals
pending before the U.S. Court of Appeals for the Ninth Circuit and the Arizona Court of Appeals,
as well as extensive remand and dispositive motion practice in fast-moving COVID-19 insurance
coverage actions pending in state and federal courts around the country, including in California,
Texas, Florida, New Hampshire, and New Jersey. VIP Products’ counsel is exercising diligence in
the preparation of the response, and this extension is not sought for purposes of delay.

ARIZONA
NEVADA

OHIO

CALIFORNIA
TENNESSEE

FLORIDA
TEXAS

KENTUCKY
TORONTO

MICHIGAN
WASHINGTON DC

DICKINSON WRIGHT PLLC

Jack Daniel’s Properties, Inc. v. VIP Products LLC
No. 20-365
October 9, 2020
Page 2

Respectfully submitted,

Bennett Evan Cooper
Counsel of Record
David G. Bray
David N. Ferrucci
DICKINSON WRIGHT PLLC
1850 N. Central Avenue, Suite 1400
Phoenix, Arizona 85004
Attorneys for Respondent VIP Products LLC
Copy served by email this 9th day of
October, 2020, on the following:
Lisa S. Blatt
Amy Mason Saharia
Matthew B. Nicholson
Thomas S. Chapman
Williams & Connolly LLP
725 Twelfth Street, NW
Washington, D.C. 20005
Theodore H. Davis Jr.
Kilpatrick Townsend & Stockton LLP
1100 Peachtree Street NE, Suite 2800
Atlanta, GA 30309
Dennis L. Wilson
Kilpatrick Townsend & Stockton LLP
1801 Century Park East, Suite 2300
Los Angeles, CA 90067
Isaac S. Crum
Rusing Lopez & Lizardi, PLLC
16427 N. Scottsdale Road, Suite 200
Scottsdale, AZ 85254

ARIZONA
NEVADA

OHIO

CALIFORNIA
TENNESSEE

FLORIDA
TEXAS

KENTUCKY
TORONTO

MICHIGAN
WASHINGTON DC

